U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Finnesy v. United States, No. 20-5746
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
14, 2020, and placed on the Court’s docket on September 17, 2020. The response of the United
States is now due, after one extension, on November 18, 2020. We respectfully request, under
Rule 30.4 of the Rules of this Court, a further extension of time to and including December 4,
2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5746
FINNESY, BRANDON THOMAS
USA

DANIEL TYLER HANSMEIER
FEDERAL PUBLIC DEFENDER'S OFFICE FOR
THE DISTRICT
500 STATE AVENUE
STE. 201
KANSAS CITY, KS 66101
913-551-6712
DANIEL_HANSMEIER@FD.ORG

